Pw
I

OCKLE

2311 Douglas Street CA : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B efalls contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1031

NORTHERN CALIFORNIA
SMALL BUSINESS ASSISTANTS, INC.,
Petitioner,
vs.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE CENTER
FOR TAXPAYER RIGHTS AS AMICUS CURIAE IN SUPPORT OF THE PETITIONER in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 5089 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 15th day of February, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska Av Chl
iq RENEE J. GOSS o. 6

My Comm. Exp. September 5, 2023
Affiant 40687

 

Notary Public
